Before the China/U.S. Aviation Symposium
Aviation’s Biggest Emerging Market:
Aviation System Development in China
Beijing, China


For Release on Delivery
April 5, 2004
11:00pm EDT
                                 Financial Condition of
                                 the Chinese and U.S.
                                 Airline Industries
                                  Presentation by
                                  The Honorable Kenneth M. Mead
                                  Inspector General
                                  U.S. Department of Transportation

_________________________________________________________________

It is an honor to be here in Beijing today to talk about China’s developing aviation
system and to address the financial condition of the U.S. airline industry. I want to
thank Minister Yang for hosting this conference. Also, I would like to thank
Bonnie Allin, the AAAE Chairperson, and Jim Bennett, IAAE Chairman, and
President/CEO of the Metropolitan Washington Airport Authority for their efforts
to organize this conference. And finally, thank you to Thelma Askey and the U.S.
Trade and Development Agency for its role in sponsoring this symposium.

A primary responsibility of the Inspector General’s Office is to exercise oversight
of the Department of Transportation, including the FAA, and to report to the U.S.
Congress and Transportation Secretary Mineta on how effectively and efficiently
programs are working and other emerging issues. As part of our oversight, we
periodically issue a report on trends on demand and capacity, aviation system
performance, airline finances, and service to small communities. The last report
we issued was in January of this year and we expect to issue our next update in
early June. The report is available on our website at www.oig.dot.gov or you may
contact my office to get a paper copy mailed to you.




*Please note that Mr. Mead’s speech will summarize this presentation.              1
Many changes have occurred in the U.S. airline industry since it deregulated 25
years ago. Deregulation gave the airlines almost unlimited freedom to choose
where they wanted to operate and what fares to charge. Deregulation allowed new
carriers to enter the market and encouraged competition in domestic markets. This
competition lowered airfares and made flying affordable to the general public. In
1978, the year of deregulation, total passenger enplanements totaled 257 million;
in 2003, that figure was 618.4 million. The number of markets with air service
grew significantly, as did the level of service in those markets. This produced
huge benefits to the U.S. economy.

Safety, however, is still the subject of intense Government oversight and the
Department of Transportation does not allow carriers to begin or continue
operations unless it determines that the carrier meets the highest safety standards.

Following deregulation, the airline industry expanded rapidly, which resulted in
new demands on the national aviation system. These challenges were not entirely
unanticipated -- and many proved temporary in nature. In hindsight, they proved
to be a small price to pay for the tremendous benefits to consumers and the U.S.
economy.

In meeting the challenges associated with airline deregulation, I would like to
make three basic points: First, some U.S. carriers are still struggling to adjust
their business plans to compete in a deregulated marketplace. Second, new low-
fare carriers are growing, and in some cases providing better service at lower cost
to the public. Third and finally, growth in air travel in the post-deregulation
environment resulted in significant demand on airports, air traffic control, and
passengers – China has many options available for addressing congestion – but
one of the lessons we learned is that it is too late to wait until congestion and
delays occur to start implementing those solutions.

I. Pre-deregulation carriers still adjusting business models

For the six largest U.S. legacy airlines – those that inherited the “legacy” of pre-
deregulation high cost structures -- the financial crisis is not over. The carriers
have made some progress in lowering labor costs and increasing worker
productivity, but probably not enough. Ticket revenues are still below those of
2000, although ticket sales are increasing. Operating margins are improving but
most carriers are still not reporting profits.

Net losses in 2003 totaled $4.8 billion US – about $2.5 billion better than the $7.4
billion loss in 2002, but none of the legacy carriers are expected to report profits
this year. These carriers face a number of financial challenges. Labor costs are



*Please note that Mr. Mead’s speech will summarize this presentation.             2
still too high, fuel prices are soaring, worker retirement funds need large cash
infusions, and high levels of debt will require significant cash.

 When the economy declined in late 2000, the airlines were hurt most by the loss
of high-fare business passengers. In 2000 when the economy was at its peak, the
airlines could count on between 40 and 50% of their revenues coming from 20%
of its passengers. Those were the business travelers paying premium fares for
unrestricted airline tickets.

In late 2000, business travelers either stopped traveling, switched to low-fare
carriers, or started traveling on much cheaper restricted tickets. Very few airlines
believe that the high-fare business market will return to what it was, even when
the economy improves. The legacy carriers are restructuring their costs to survive
without these high business fares.

The legacy carriers are also restructuring their pricing schemes to draw back the
business passengers. While business passengers may not be willing to pay the
high fares they once paid, they are likely to be willing to pay some level of
premium in exchange for greater schedule flexibility and special amenities.

The carriers have taken steps to restructure their costs and remain competitive,
including eliminating excess system capacity. Compared to May 2000, scheduled
seat availability in May 2004 is down nearly 10%, although it has improved over
May 2003 when scheduled seat availability was down 15%.

Many large airplanes are now parked in the Arizona desert while the carriers move
to smaller aircraft in their own fleet or regional aircraft operated by their lower
cost regional airline partners. Since March 2000, regional jet departures have
increased by 159%.

The Internet has also helped carriers reduce their distribution costs by eliminating
travel agency fees and internal reservation agent positions. In 2003 about 31% of
all domestic airline tickets were sold over the Internet in the United States, with
some carriers posting online sales as high as 75%.

While the airlines have saved money because of the Internet, consumers have
become more efficient at finding lower-cost flights. Increased price awareness
by both business and leisure travelers will continue to compel the airlines to price
competitively.




*Please note that Mr. Mead’s speech will summarize this presentation.             3
II. Growth in Low-fare Carriers has Made Flying Even More
Affordable.

 Since deregulation, new low-fare carriers have entered the market and existing
low-fare carriers have expanded. In some cases, the low-fare carriers offer newer
aircraft, better in-flight services – like satellite radio and leather seats – and better
on-time performance than the legacy carriers.

Low-fare carriers have significantly lower cost structures and can afford to charge
low fares and still carry passengers profitably.

Since 2000, low-fare carriers have taken advantage of the legacy carriers’ financial
distress to move into markets traditionally dominated by the legacy carriers. Low-
fare airlines together now control about 25% of domestic air capacity – up from
15% four years ago – and all fly in the highest-demand markets. About 70% of
domestic fliers have access to at least one low-fare carrier.

As low-fare carriers grow and enter new markets, the fares offered by all airlines
in those markets will drop, benefiting the communities that receive service. The
legacy carriers, facing competition from low-fare carriers, are attempting to
restructure their operations to better survive now that they have lost the ability to
charge higher fares.

United Airlines and Delta Airlines have created “Ted” and “Song” as lower cost
divisions to operate in many of the markets where they compete with low-fare
carriers. The legacy carriers are also hoping that their large networks, their
frequent flyer programs, and access to International destinations will provide them
some competitive advantages over the low-fare carriers.

That remains to be seen. The low-fare carriers continue to expand their networks,
develop frequent flier programs of their own, and consider the possibility of
serving foreign markets.

III. Significant industry growth followed deregulation, placing new
demands on the Aviation System.

In the summer of 2000, as the US economy was soaring, air traffic reached an all-
time high. Airspace, runways, and airport terminals reached their saturation point
and congestion and delays surged -- nearly 1 in 3 flights delayed, delays averaged
57 minutes.

When the economy faltered in 2000, demand and traffic were down, taking some
of the pressure off the system. But we are now seeing demand beginning to return


*Please note that Mr. Mead’s speech will summarize this presentation.                  4
and with it, delays at some of our nation’s busiest airports. Systemwide, in
January and February of this year, nearly one in five flights was delayed -- a 33%
increase over last year – and the average delay was more than 45 minutes.

By increasing service frequency with smaller regional aircraft, the airlines are
carrying fewer passengers but, over time, this can result in more operations. And,
as demand increases, the number of operations will further multiply and this, in
turn, will increase demand for airport gates and runways.

In the area of Air Traffic Control, airports, and Infrastructure, there are several
lessons we can learn from the congestion crisis in the U.S. in 2000. Most
important is the need to take steps now to prevent a recurrence of those conditions.
Transportation Secretary Mineta and FAA Administrator are taking both short and
long term actions.

In the short term, we are using new technology, Air Traffic Control procedures,
daily communication with the airlines and air traffic control, and encouraging the
airlines to schedule flights responsibly. New runways have been constructed at
some airports and others are under consideration at key airports like Chicago
O’Hare.

Also, Secretary Mineta recently announced the Next Generation Aviation
Initiative that will examine ways to potentially triple the capacity of the US
aviation system by 2025. While new runway construction will ultimately play a
major role in improving capacity, the Initiative could result in technologies that
form the platform for a new and more efficient global system.

Although not all of the challenges we have in the U.S. apply to the same degree or
in the same manner in China – like labor and land acquisition – there are
similarities. And discussions of these areas – like those occurring at this aviation
symposium and the Air Service Agreement negotiations -- will benefit both China
and the U.S.

So, looking forward to China’s future, I’d like to offer a few thoughts. As China
moves forward to modernize its own air traffic control system, it could take
advantage of the billions of dollars that have already been invested in aviation
technology research and development over the past few decades. By doing so,
China can save time and money it might otherwise spend on research and
development.

Delays are not yet a big problem in China, but traffic into Beijing is expected to
almost double in time for the Olympics in 2008 and the present system must be
prepared to accommodate this increased demand for air service. I commend the


*Please note that Mr. Mead’s speech will summarize this presentation.             5
Civil Aviation Administration of China (CAAC) for working with the FAA to
identify ways of coping with anticipated future demand. Some of these options
include introduction of air traffic control procedures, the use of existing air traffic
control technology, runway configuration planning, and construction.

Also, I understand that China is planning to produce a new regional jet – the ARJ-
21, which it hopes to have in service in just a few years. The foundation of the
airplane certification process is to ensure a high level of safety, and the process for
meeting the basic safety standards is demanding. All efforts should be made in the
near term to recruit and fully staff qualified personnel to oversee the process.

And finally, on the economic and marketplace level, it’s been a difficult few years
for the airline industry worldwide – but the U.S. and Asia have been hit harder
than others. In the third quarter of 2003, mainly due to SARS, Transpacific traffic
by U.S. carriers was down 8% over 2002 levels. But it looks like we’re back in a
positive growth cycle. Scheduled departures this June are up 11% from last June,
and scheduled seats are up nearly 17%.

As China’s trade and tourism industries grow, a great demand for air-passenger
and air-cargo is likely to develop both domestically and abroad. I understand that
we are currently in the process of negotiating expanded opportunities for air
services under the U.S.-China Air Services Agreement to accommodate the
demand that is expected to develop on both sides of the Pacific for access to each
other’s markets. A liberalized approach to opening markets for international air
services would result in large benefits to China’s economy and its citizens.

These benefits will be achieved as we work together cooperatively and
energetically to build upon a mutually beneficial partnership. Federal Aviation
Administrator Blakey was here in February to attest to this relationship and to
assure our country’s commitment to this partnership and to assisting China in its
program of aviation and economic growth. It’s been an honor and a privilege to
be present with you here today.

Thank you.




*Please note that Mr. Mead’s speech will summarize this presentation.                6
